Audit of USAID/Ecuador’s Northern Border
Development Program

Audit Report No. 1-518-04-010-P

September 3, 2004




             San Salvador, El Salvador
September 3, 2004

MEMORANDUM
FOR:          USAID/Ecuador Director, Lars Klassen

FROM:         RIG/San Salvador, Steven H. Bernstein “/s/”

SUBJECT:      Audit of USAID/Ecuador’s Northern Border Development
              Program (Report No. 1-518-04-010-P)

This memorandum transmits our final report on the subject audit. In
finalizing this report, we considered your comments on our draft report and
have included your response in Appendix II.

The report includes one recommendation as follows: Establish procedures to
ensure that beneficiaries are not double counted when reporting the overall
number of beneficiaries of the Northern Border Development Program.
Based on your comments and the documentation provided, final action has
been taken, and the recommendation is closed upon issuance of this report.

Once again, I appreciate the cooperation and courtesy extended to my staff
during the audit.
This page intentionally left blank.




                                      4
Table of   Summary of Results                                                   7
Contents   Background                                                           8

           Audit Objectives                                                     9

           Audit Findings                                                       9

                  How have USAID/Ecuador funds been spent under the Northern
                  Border Development Program?                                   9

                  Was USAID/Ecuador’s Northern Border Development Program
                  on schedule to achieve planned, sustainable results?    13

                         Activities Not on Schedule                            19

                         Double Counting of Beneficiaries                      19

                  Did USAID/Ecuador implement a monitoring system for its
                  Northern Border Development Program in accordance with
                  USAID policies?                                              20

           Evaluation of Management Comments                                   21

           Appendix I - Scope and Methodology                                  23

           Appendix II - Management Comments                                   27




                                                                                5
This page intentionally left blank.




                                      6
Summary of   As part of its fiscal year 2004 audit plan, the Regional Inspector
Results      General/San Salvador performed this audit to answer the following
             questions:

                •   How have USAID/Ecuador funds been spent under the Northern
                    Border Development Program?

                •   Was USAID/Ecuador’s Northern Border Development Program on
                    schedule to achieve planned, sustainable results?

                •   Did USAID/Ecuador implement a monitoring system for its
                    Northern Border Development Program in accordance with USAID
                    policies? (Page 9)

             As of March 31, 2004, approximately $21.6 million was spent under the
             Northern Border Development Program, including $9.1 million on water
             systems and sewer systems, $4.3 million on roads and bridges, $500,000 on
             irrigation canals and reservoirs, $1 million on alternative development
             projects, and approximately $1.7 million on land titling, drug education and
             prevention, strengthening government units, and assistance to Afro-
             Ecuadorian and indigenous communities. (Page 9)

             As of December 31, 2003, eight of the ten activities of USAID/Ecuador’s
             Northern Border Development Program were on schedule to achieve
             planned, sustainable results, having achieved 90 to 100 percent of the
             planned, sustainable results. The land titling and the drug education and
             prevention programs achieved less than 90 percent of their planned results.
             The land titling program achieved 89 percent of the planned results, and
             the drug education and prevention program achieved 79 percent of the
             planned results. (Page 13) Additionally, beneficiaries of two or more
             projects are double counted when USAID/Ecuador reports the total
             number of beneficiaries. (Page 19)

             USAID/Ecuador implemented a monitoring system for its Northern
             Border Development Program in accordance with USAID policies. (Page
             20)

             We are making one recommendation that USAID/Ecuador establish
             procedures to ensure that beneficiaries are not double counted when
             reporting the overall number of beneficiaries of the program. (Page 20)




                                                                                       7
             USAID/Ecuador concurred with the findings and the recommendation
             presented in this report, and took appropriate corrective action.
             Accordingly, final action has been taken, and the recommendation is
             closed upon issuance of this report. (Page 21)



Background   Ecuador faces a variety of development challenges.          In 2003,
             unemployment was 9.8 percent, underemployment was an estimated 47
             percent, and an estimated 65 percent of Ecuador’s population lived in
             poverty. Confidence in democracy was dangerously low, and the
             coca/cocaine industry in Colombia was impinging upon Ecuador’s
             northern border region.

             USAID/Ecuador’s Northern Border Development Program (NBDP) is
             intended to improve the lives of the population living along Ecuador’s
             northern border. The program includes projects in the areas of community
             infrastructure, strengthening of civil society as a means of improving
             health conditions, and generally promoting economic development in the
             northern provinces. The NBDP also seeks to mitigate the potential
             negative impact of Plan Colombia1 activities. The program was designed
             to help Ecuador show state presence and commitment in the north, and the
             program was closely coordinated with the Government of Ecuador’s
             Northern Border Development Unit, a governmental unit that was created
             to coordinate all development efforts along the northern border. Specific
             projects include water, sewer, road, bridge, and land titling projects,
             micro-enterprise support, and protection of human rights.




             1
                 Recognizing the severity of illicit drug activities and the links between drug trafficking
                 and illicit crop cultivation, and the violence affecting Colombia, the Government of
                 Colombia announced a $7.5 billion plan in October 1999, known as Plan Colombia.
                 The plan, among other things, proposed to reduce the cultivation, processing, and
                 distribution of illegal narcotics by 50 percent over six years. To assist the Government
                 of Colombia, the United States substantially increased funding and material support to
                 Colombia beginning in 2000.




                                                                                                         8
                 In October 2000, USAID approved an $8 million, 24-month Special
                 Objective. The Special Objective was extended one year with an
                 additional $10 million in funding. The program was revised and expanded
                 in FY 2003 in a new Strategic Objective designed to support the Andean
                 Counterdrug Initiative and to support the Government of Ecuador’s five-
                 year Northern Border Development Plan. The Strategic Objective was
                 approved in February 2003, and it extended the program through FY 2006
                 providing an additional $60 million in funding. As of March 31, 2004,
                 obligations under both the Special Objective and the Strategic Objective
                 totaled approximately $34 million, and total expenditures were
                 approximately $21.5 million.

                 In December 2000, USAID/Ecuador entered into a two-year cooperative
                 agreement with the International Organization for Migration2 (IOM) to
                 implement its NBDP. This cooperative agreement has been extended
                 three times, most recently through October 2006. In September 2003,
                 USAID/Ecuador contracted with Associates in Rural Development, Inc. to
                 design and implement the alternative development program that began in
                 the fall of 2003 as part of the new Strategic Objective.



Audit            As part of its fiscal year 2004 audit plan, the Regional Inspector
Objectives       General/San Salvador performed this audit to answer the following
                 questions:

                        • How have USAID/Ecuador funds been spent under the Northern
                          Border Development Program?

                        • Was USAID/Ecuador’s Northern Border Development Program on
                          schedule to achieve planned, sustainable results?

                        • Did USAID/Ecuador implement a monitoring system for its
                          Northern Border Development Program in accordance with USAID
                          policies?



Audit Findings       How have USAID/Ecuador funds been spent under the Northern
                     Border Development Program?




                 2
                     The International Organization for Migration is an international inter-governmental
                     organization headquartered in Geneva.



                                                                                                      9
USAID/Ecuador funds were used to build and improve water and sewer
systems, roads, bridges, and irrigation systems. Funds were also used for
land titling, drug education and prevention, and alternative development
programs as shown in Table 1 on the following page.

 Table 1: USAID/Ecuador Northern Border Development Program
               Expenditures as of March 31, 2004

                        Program                              Expenditure
                                                              Amount

 Potable water systems and sewer systems                       $ 9,103,804
 Roads and bridges                                               4,252,011
 Irrigation canals and reservoirs                                  521,171
 Land titling                                                      275,080
 Alternative development                                           966,204
 Strengthening government units                                    739,575
 Training and assistance to Afro-Ecuadorian and                    433,049
 indigenous communities
 Training and assistance to enhance sustainability                 371,478
 Drug education and prevention                                     218,909
 Assistance to displaced Colombians                                 72,512
 Democratic values survey                                           30,000
 Human rights training and assistance to public defender’s          20,570
 office
 Public diplomacy                                                    6,450
 International Organization for Migration (IOM) field            1,095,457
 offices
 IOM administration charges                                      2,980,731
 USAID program management                                          468,174

 Total                                                         $21,555,175

Note: Amounts were not audited.

The following paragraphs discuss all programs in which more than
$100,000 was expended.

Potable water systems and sewer systems – USAID/Ecuador spent
approximately $9.1 million building and/or rehabilitating water and sewer
systems, mainly in small, rural communities. As of December 31, 2003,
38 water systems and five sewer systems had been built or rehabilitated.
One water system begun in 2003 was completed in early 2004. As of
March 31, 2004, contracts had been issued for work on an additional nine
water systems and one additional sewer system.




                                                                           10
Roads and bridges – USAID/Ecuador spent approximately $4.3 million
building and rehabilitating roads and bridges in the northern provinces of
Ecuador. Most of the road funds were spent rehabilitating a 52.2 mile
unpaved road between Trufiño and Quinshull near the Colombian border
in the Province of Carchi. Eight vehicular bridges and 13 pedestrian
bridges were constructed through the end of 2003. As of March 31, 2004,
contracts had been issued for work on an additional seven bridges.




Photograph of Chota River pedestrian bridge in the Province of Carchi taken in
June 2004.

Irrigation canals and reservoirs – USAID/Ecuador spent approximately
$521,000 on irrigation canals and reservoirs in the northern provinces of
Ecuador. Concrete irrigation canals were constructed to replace dirt
canals. In addition to conserving water by eliminating the loss of water
into earthen walls, the concrete canals also substantially reduce the annual
maintenance requirements because plants do not grow in concrete, and
concrete walls do not wash out the way earthen walls do.




                                                                           11
Land titling – USAID/Ecuador spent approximately $275,000 supporting
land titling efforts that benefited 2,508 people. Since title to land is a
major constraint to securing a key productive asset and is a strong felt
need among the population, USAID/Ecuador provided technical assistance
and direct support to farmers and indigenous communities to obtain titles
to their properties. USAID/Ecuador was working with small holders over
the short term while the Inter-American Development Bank was working
with the Government of Ecuador to modernize and simplify land titling
procedures.

The Mission worked with the Ecuadorian Fund for Popular Progress (an
Ecuadorian non-governmental organization) to assist 15 indigenous
communities in the Province of Sucumbíos to legalize community land
holdings in a forest reserve. This included setting the borders of the land
holdings and obtaining legal recognition for the communities that lacked
legal status. USAID/Ecuador also assisted 54 families in Sucumbíos in
obtaining title to their land.

Alternative development – USAID/Ecuador began its alternative
development program in September 2003, when it contracted with
Associates in Rural Development, Inc. (ARD) to design and implement
the program. Approximately $966,000 had been spent on this program.
Cacao, coffee, potatoes, and broccoli farming have been identified as areas
in which the program was concentrating this first year. ARD was working
with farmers’ associations to assist farmers in improving their cultivation
techniques and in capturing more value for their product by improving
quality and by selling directly to buyers and processors.

Strengthening government units – USAID/Ecuador spent approximately
$740,000 strengthening government units. These funds were spent
helping to equip the Government of Ecuador’s Northern Border
Development Unit (known by its Spanish acronym UDENOR). Funds
were spent to purchase vehicles and office equipment as well as to assist
in the development of a computerized geographic-referenced mapping
system of the northern provinces. The International Organization for
Migration (IOM) also hired a local university to conduct surveys in the
northern provinces regarding the effects of the Colombian conflict on
northern Ecuador for use by UDENOR and IOM.




                                                                        12
Training and assistance to Afro-Ecuadorian and indigenous
communities – USAID/Ecuador spent approximately $433,000 to provide
training and assistance regarding conflict resolution, agro-forestry, forest
management, the environment, community plant nurseries, production of
marmalade, and the participation of women in the community.
USAID/Ecuador also assisted the Cofán indigenous community in
demarking its territorial limits, obtaining government approval of the
Cofán territorial limits, and constructing guard houses.

Training and assistance to enhance sustainability – IOM provided
$371,000 of training to the water boards on how to administer, operate and
maintain the water systems. Administrative training included basic
accounting and management of the paperwork. Operational training
included chlorination and installation of pipes.          Operation and
maintenance manuals were prepared and provided to the water boards.

Drug education and prevention – USAID/Ecuador spent approximately
$219,000 on drug education and abuse prevention training. IOM
contracted with the Government of Ecuador’s Ministry of Education and
Culture to provide this training, and approximately 25,000 students,
teachers and parents participated in the training.

Was USAID/Ecuador’s Northern Border Development Program on
schedule to achieve planned, sustainable results?

As of December 31, 2003, eight of the ten activities3 of USAID/Ecuador’s
Northern Border Development Program (NBDP) were on schedule to
achieve the planned, sustainable results, having achieved 90 percent to 100
percent of the planned, sustainable results. The land titling and the drug
education and prevention programs achieved less than 90 percent of the
planned results. The land titling program achieved 89 percent of the
planned results, and the drug education and prevention program achieved
79 percent of the planned results.4 The results are summarized in Table 2
on the following page.




3
    The alternative development program is not included in the list because it began in the
    fall of 2003, and it was too soon to begin measuring results.
4
    Sustainability has two components, operational sustainability on a daily basis and long-
    term sustainability including capital investments to replace broken or worn out-capital
    assets. We determined that water, sewer and irrigation systems that achieved
    operational sustainability on a daily basis were sustainable for purposes of this audit.



                                                                                         13
            Table 2: Results of USAID/Ecuador Northern Border
                           Development Program

                                                 Cumulative as of
                                                December 31, 2003
                  Indicator                     Target     Actual            Percent

    Number of village potable water                36             38           106%
    systems constructed, repaired, or
    expanded in target areas

    Number of sewer systems                        4              5            125%
    constructed, repaired, or expanded in
    target areas

    Number of water boards created,            22 (17 A       27 (18 A         123%
    legalized, trained, and functioning, by    and 5 B)       and 9 B)
    category A and B (Graded A to E on
    basis of monthly operational review
    by IOM with A being the highest
    rating.)

    Number of water administration units           5              5            100%
    in municipalities created or
    strengthened

    Number of miles of roads constructed          55.6           55.6          100%
    or repaired

    Number of pedestrian and vehicular             22             21           95%
    bridges constructed or repaired

    Number of irrigation systems repaired      6 systems      6 systems        100%
    and number of hectares of land               6,782          6,782
    irrigated                                   hectares       hectares

    Number of persons receiving benefits         2,825          2,508          89%
    from land titles

    Number of students, teachers, and           32,000         25,148          79%
    parents participating in drug
    education and prevention program

    Number of beneficiaries in area             271,001        253,633         94%
    whose lives are improved by access to
    social and productive infrastructure5


Note: Actual numbers were audited.

5
    This was at the higher Special Objective level while the other activities are at the
    Intermediate Result level.



                                                                                     14
We randomly selected 55 water, sewer, road, bridge, irrigation, land
titling, and alternative development projects to visit as discussed in the
following paragraphs. We were unable, however, to visit the land titling
projects because of security concerns, and we therefore replaced these
projects with other projects.6 Our conclusion that eight of the ten
activities of the NBDP were on schedule was based on the results of these
site visits and our review of the documentation maintained by the Mission
and by IOM.

Water and sewer systems – The water systems were sustainable on a
daily basis.      IOM provided training regarding the operation and
maintenance of the water systems, administrative and financial aspects of
operating water systems, and watershed conservation. IOM also provided
technical assistance through consultants in order to regulate, improve and
optimize operation of the systems. IOM visited each water board monthly
to review its operational and administrative status, and additional
assistance or training was provided as needed.

We visited 26 of 48 water systems and 4 of 6 sewer systems.7 We visually
inspected parts of each water system that we visited, and they were in
good physical condition.8 One water system was having problems with its
intake valve when its river source was running low, and this system was
not sustainable in its present condition. Since only one (3.8 percent) of the
26 water systems inspected was behind schedule, water projects were
considered to be on schedule. Further, the actual number of water systems
constructed as of December 31, 2003, exceeded the target. The four sewer
systems that we visited were visually in good physical condition.

All the water boards and departments we visited acknowledged receiving
training, and they all stated that the training was good. Almost all water
boards were interested in receiving additional training to build upon and
reinforce the training they have already received. IOM also assisted water
boards in becoming legally organized and registered with the government,
and IOM provided training on the Ecuadorian Law of Water Board
Administration.



6
    For a discussion of the random selection of projects visited, see the Methodology
    section in Appendix I.
7
    The universe of projects for site visits was greater than the number of projects listed in
    Table 2 because 2004 projects for which contracts had been issued as of March 31 were
    included. Table 2 only includes projects completed by December 31, 2003.
8
    See the Methodology section in Appendix I for a discussion of the visual inspection.



                                                                                           15
Each water board set its own water rates which ranged from as low as
$0.50 per month to a high of $4.00 per month for the basic level of
service. The water systems with the lowest rates had basic gravity flow
systems that required little work or maintenance and were operated on a
volunteer basis. The water boards with the highest rates had electric
pumps and generators along with water towers and a paid employee.
While the monthly water fees were sufficient to pay for the on-going
operation and maintenance of the water and sewer systems we observed,
the fees were not adequate to build up a reserve sufficient to pay for major
capital expenses. Three water boards had built up a cash balance in excess
of $1,000, but most of the other water boards had balances less than $200.
Even the least expensive water system we visited cost several thousand
dollars, and it is therefore probable that most of the water boards will not
be able to pay for major capital repairs or expansions. We are not making
a recommendation because we believe that, for the purposes of the
Northern Border Development Program, achieving operational
sustainability was sufficient. The program’s goal was for the water
systems to be sustainable on an operational basis, and it met this goal.




        Photograph of Cascales water aeration tower taken in June 2004.



                                                                          16
Roads and bridges – We inspected five of the six road and paving
projects. We also visited 12 of the 28 bridges. Based on our visual
inspection,9 all the roads and bridges we inspected were in good condition.
While we observed some potholes in one road and some vegetation
growing in ditches, the instances of these problems were minor. The
Ministry of Public Works of the Province of Carchi sent a letter to IOM
accepting and agreeing to maintain the 52.2 mile dirt road re-built and
improved by IOM. We observed several places along the road where the
Ministry had cleared landslides and re-graded the road. IOM informed us
that the small communities along the road also take some responsibility
for maintaining the road such as by filling some potholes and cutting back
the vegetation growing in part of the ditches. We observed some potholes
that appeared to have been manually filled. This road was a sustainable
project in that the provincial government has agreed to maintain it and has
acted upon this agreement by clearing landslides.

The vehicular bridges we observed were either concrete bridges or metal
bridges that were well-constructed, and IOM stated that the bridges need
little, if any, maintenance. The pedestrian bridges that we observed
ranged from a large suspension bridge over a wide riverbed, whose picture
is on page 9, to a small suspension bridge. The suspension bridges have
wooden planks, which the local communities will be able to replace as
needed at little or no cost. The bridges were therefore also sustainable.

Irrigation systems – Out of the six irrigation systems improved under the
NBDP in 2003, we visited two irrigation canals and one reservoir. All the
beneficiaries that we met were pleased with the results. We walked along
the two canals, and they were both well-maintained. Very little vegetation
was hanging down in them, and they were in new condition. The farmers
that were members of the irrigation associations stated that they maintain
the canals. Given the farmers’ commitment to maintain the irrigation
canals, they were sustainable.




9
    See the Methodology section in Appendix I for a description of the visual inspection.



                                                                                            17
Based on our visual inspection, the reservoir that we visited was in good
condition. Just as with the irrigation canals, the farmers benefiting from
the reservoir do the routine maintenance and operation work, such as
opening and closing the valves and clearing vegetation or debris that
might accumulate. They are operating on a sustainable basis, absent some
natural disaster such as an earthquake. The dam constructed under the
program, however, was constructed on top of an existing low dam, and
water was seeping through the wall of the old dam. IOM informed us that
water was not previously seeping through the wall of the old dam. The
week after our site visit, IOM’s regional coordinator sent a letter to the
local government informing it of the seepage through the wall of the old
dam and advising it that it needed to repair the old dam. Even if the dam
is not repaired, IOM does not think that the dam is at risk.

Alternative development – Although it is not possible to answer the audit
objective with regard to alternative development projects due to the early
stage of implementation, we conducted site visits at three alternative
development projects in order to review the status of implementation of
the projects. Associates in Rural Development, Inc. (ARD) was working
with farmer groups to identify ways in which they can improve
cultivation, quality, and consistency in order to receive better prices for
their products. ARD was also helping to establish direct contacts between
the farmer groups and exporters and buyers in order that the farmers will
receive higher prices instead of middlemen taking a cut.

ARD was working with second level cacao associations to improve and
intensify the cultivation of cacao as well as to improve the quality and
consistency of the fermentation and drying process in order to bring the
farmers increased income through larger harvests and improved quality.
ARD arranged for representatives of a cacao association to meet with
cacao exporters in Guayaquil. ARD also contacted U.S. and European
chocolate companies about the Ecuadorian “national” variety of cacao,
and some of these companies expressed interest in buying Ecuadorian
cacao, possibly directly from the farmers’ associations, if the farmers’
associations can consistently supply quality cacao in a sufficient quantity.

ARD has been meeting with coffee farmers, and it arranged a meeting for
the coffee farmers with a buyer/processor. The Mission’s plan was to
concentrate on improving cultivation techniques in order to increase
productivity, thereby increasing production.      There was a coffee
processing plant in Ecuador that was interested in buying the increased
production. The plant was importing coffee from Vietnam. Both the
Mission and ARD stated that Ecuadorian coffee can compete with the
imported Vietnamese coffee on price.




                                                                         18
Activities Not on Schedule

Land titling – The program goal was that 2,825 persons would benefit
from land titling projects, but only 2,508 persons benefited, 89 percent of
the goal. This activity fell short of its goal because the land titling process
took longer than anticipated. The Ecuadorian Fund for Popular Progress
was continuing to work on pending land titles this year, but it was doing
so without additional funds. Going forward, USAID/Ecuador planned to
work with another organization that it believes will be more successful in
legalizing land holdings in a shorter period of time. We are not making a
recommendation because the Mission has decided to work through a
different organization.

Drug education – The goal of the drug education program was to have
32,000 students, teachers, and parents participate in a drug education and
prevention program. USAID/Ecuador was unsuccessful in meeting its
goal in its drug education and prevention program. The Mission explained
that the goal was set before IOM devised an implementation plan. IOM
was unable to locate a suitable organization to carry out this program until
it ascertained that the Government of Ecuador’s Ministry of Education and
Culture had a good program. IOM signed a contract with the Ministry of
Education and Culture in October 2001, and it projected at that time that
there would be 13,848 participants in 2002 as opposed to the 18,000 in the
Mission’s performance monitoring plan. IOM’s goal of 13,848 was met
as well as the goal of 11,000 in 2003. While this activity only achieved 79
percent of USAID’s goal, it is noted that the drug education and
prevention program accounted for less than 2 percent of funds expended
under the NBDP through December 31, 2003. This is not an on-going
program, and we therefore are not making a recommendation.

Double Counting of Beneficiaries

IOM and the Mission calculated the overall number of beneficiaries of the
Northern Border Development Program without adjusting the numbers for
persons that benefited from two or more projects. For example, a water
project, a sewer project, and a bridge project were all executed in San
Lorenzo. The beneficiaries for the water and sewer projects were the
same, and they were counted twice in calculating the overall number of
beneficiaries. Some of the beneficiaries of the bridge also benefited from
the water and sewer projects, and these people were counted a third time.
While each project benefited the people, not adjusting the overall number
of beneficiaries to eliminate double counting misleads persons not familiar
with the projects as to the overall number of beneficiaries. The percentage
of the goal achieved was not affected, however, because the overall goal
for number of beneficiaries was calculated in the same manner.



                                                                            19
The Mission explained that this issue had arisen in 2003 in a mid-term
evaluation of another program, and Development Associates, Inc., the
entity conducting the evaluation for USAID, stated that it was acceptable
to double count beneficiaries as long as it was consistent and disclosed the
double counting. Section 203.3.5.1.c of USAID’s Automated Directives
System, however, states that data should be sufficiently precise to present
a fair picture of performance and enable management decision-making at
the appropriate levels. Double counting beneficiaries does not present a
fair picture of performance. Accordingly, we make the following
recommendation:

       Recommendation No. 1:           We recommend that
       USAID/Ecuador establish procedures to ensure that
       beneficiaries are not double counted when reporting the
       overall number of beneficiaries of the Northern Border
       Development Program.

Did USAID/Ecuador implement a monitoring system for its Northern
Border Development Program in accordance with USAID policies?

USAID/Ecuador implemented a monitoring system for its Northern
Border Development Program in accordance with USAID policies. In
accordance with section 202.3.6 of USAID’s Automated Directives
System, USAID/Ecuador implemented a monitoring system that included
the following general components:

   •   receiving and approving annual work plans,

   •   reviewing performance and financial reports,

   •   monitoring the quality and timeliness of key outputs, and

   •   monitoring positive or negative environmental impacts.

To perform day-to-day monitoring, USAID/Ecuador hired two personal
service contractors who perform regular oversight of IOM and ARD,
including site visits at least monthly, review of performance and financial
reports, and regular interaction with IOM and ARD. The Northern Border
Development Program team had been meeting twice a month to review the
status of the program and to address any issues that arise.




                                                                         20
                The Mission complied with USAID’s environmental policies. An Initial
                Environmental Evaluation was submitted and approved for the Special
                Objective in 2000 and for the Strategic Objective in 2003.
                USAID/Ecuador’s environmental officer was a member of the Northern
                Border Development team, and she reviewed all projects in accordance
                with USAID’s environmental regulations, found at Title 22 Code of
                Federal Regulations Part 216.

                Due to security concerns, Mission personnel were not permitted to visit all
                the projects, but the Mission has a high level of confidence in IOM, and it
                therefore relied on IOM’s reports containing numerous photographs. IOM
                worked closely with the Mission in implementing the projects, and IOM’s
                personnel visit all sites.




Evaluation of   USAID/Ecuador agreed with the recommendation to establish procedures to
Management      ensure that beneficiaries are not double counted when reporting the overall
Comments        number of beneficiaries of the Northern Border Development Program.




                                                                                        21
This page intentionally left blank.




                                      22
                                                                                 Appendix I


    Scope and     Scope
    Methodology
                  The Regional Inspector General/San Salvador conducted this audit in
                  accordance with generally accepted government auditing standards. In
                  planning and performing the audit, we assessed the effectiveness of
                  management controls related to measuring progress of the Northern
                  Border Development Program (NBDP) activities. The management
                  controls identified included management’s preparation of its Performance
                  Monitoring Plans; the Mission’s annual self-assessment of management
                  controls through its annual Federal Managers Financial Integrity Act
                  review; and performance and financial reports from the International
                  Organization for Migration (IOM) and Associates in Rural Development,
                  Inc. (ARD).
y
                  According to Mission records, as of March 31, 2004, approximately $34
                  million had been obligated for NBDP activities, and expenditures totaled
                  approximately $21.6 million. The NBDP activities were implemented by
                  IOM and ARD. We conducted the audit at the offices of USAID/Ecuador
                  and IOM, with a cut-off date of March 31, 2004. We interviewed
                  Mission, IOM, and ARD officials and reviewed documents such as the
                  cooperative agreement with IOM, the contract with ARD, statements of
                  work, annual work plans, and performance reports. Completed projects
                  and projects for which a contract had been entered into as of the cut-off
                  date were included in the universe of projects. We conducted site visits in
                  the Provinces of Carchi, Imbabura, Esmeraldas, Sucumbíos, Napo, and
                  Orellana.

                  The audit did not include a review of the construction projects by an
                  independent engineer.

                  Audit fieldwork was conducted from May 25 through June 25, 2004.

                  Methodology

                  To determine how USAID/Ecuador funds have been spent under the
                  Northern Border Development Program, we reviewed the Mission’s
                  financial reports and contacted IOM for details in each category. We met
                  with Mission and IOM officials to review the breakdown of spending. We
                  did not audit the figures.




                                                                                          23
To determine whether USAID/Ecuador’s NBDP activities were on
schedule to achieve planned, sustainable results, we reviewed the
Mission’s Performance Monitoring Plans and Annual Reports and IOM’s
performance and financial reports, we verified reported sustainable results
as of December 31, 2003, and we visited 54 projects. To determine
sustainability, we determined if they needed maintenance, and if so, if an
organization would maintain the water systems, sewer systems, roads,
bridges, and irrigation systems. We made a determination if the
organization had the financial capacity to maintain the projects.

Our site visit strategy was based on a statistical sample that used an
expected error rate of 5 percent and was designed to provide 95 percent
confidence with plus/minus 4 percent precision. The resulting sample size
was 54 projects, out of 152 projects. Because there were a large number
of alternative development projects and only one was selected in the
statistical sample, we added one alternative development project to the
initial random sample for a total of 55 projects.

The statistical sample consisted of 28 water systems, 5 sewer systems, 5
roads and paving projects, 10 bridges, 3 land titling projects, 2 irrigation
canals, 1 irrigation reservoir, and 1 alternative development project. As a
result of security concerns, we were not able to visit 11 of the projects in the
statistical sample. We replaced the items in the statistical sample with the
next project in the randomly sorted list of projects, to the extent possible.

We visited 26 of the 48 water systems, 4 of the 6 sewer systems, all 6 road
and paving projects, including 42 miles of a 52.2 mile road, 12 of the 28
bridges, 2 of the 4 irrigation canals, 1 of the 2 irrigation reservoirs, and 3
of the 46 alternative development projects. Because of security concerns,
we did not visit any of the land titling projects, but we met with the
Ecuadorian Fund for Popular Progress, the Ecuadorian non-governmental
organization that was implementing the land titling projects under a
subcontract with IOM.

All site visits to construction projects were conducted with an engineer from
IOM, and the site visits to the alternative development projects were
conducted with an official from ARD. A Mission official accompanied us
on approximately one-half of the site visits. Any problems noted were
discussed with the IOM engineer or ARD official and a Mission official.

We assessed whether there were obvious deficiencies in the construction
projects. Our visual review of the projects was limited to tasks that could be
carried out by lay persons, not professional engineers.




                                                                             24
Water systems were evaluated based on a visual inspection of the physical
plant; an interview with the water board regarding operations, maintenance,
and training; and a review of the accounting records. Sewer systems were
evaluated based on a visual inspection of the physical plant and an interview
with the operators regarding operations, maintenance, and training. The
visual inspections included examining walls and floors for cracks, examining
pipes for leaks or corrosion, and determining if the water or sewer system
was operating.

Roads were evaluated based on a visual inspection of the:

       •   existence of potholes,
       •   leveling of the surface camber (arched surface),
       •   presence of corrugations,
       •   existence of erosion channels on the roadway, shoulders or ditch
           slopes,
       •   adequacy of road drainage, and
       •   presence of vegetation in roads or ditches.

The bridges were evaluated based on a visual inspection of their condition.

An independent civil engineer hired by the Regional Inspector General/San
Salvador agreed that the above criteria were appropriate to determine
whether the roads and bridges were in adequate condition.

Irrigation systems were evaluated based on a visual inspection of the
condition of the dam and the concrete irrigation canals looking for cracks,
leaks, and obvious faults.

We reviewed and sampled the supporting documentation at IOM for
determining the number of water administration units created or
strengthened, the number of hectares of land irrigated, and the number of
beneficiaries of projects.

To determine the significance of our findings, we considered the following
as of December 31, 2003:

       •   If at least 90 percent of the activities10 had achieved at least 90
           percent of their planned results, we would have answered the
           objective positively.




10
     The activities are those listed in Table 2 on page 14.



                                                                              25
   •   If 80 to 89 percent of the activities had achieved at least 90 percent
       of their planned results, we would have answered the objective
       positively but with a qualification.

   •   If less than 80 percent of the activities had achieved at least 90
       percent of their planned results, we would have answered the
       objective negatively.

To determine if USAID/Ecuador implemented a monitoring system for its
Northern Border Development Program in accordance with USAID
policies, we interviewed Mission personnel, and we reviewed Mission
files including field trip reports, environmental reports, correspondence
between the Mission and IOM and ARD, and reports filed by IOM and
ARD.




                                                                          26
                                                                              Appendix II


Management
Comments


    DATE:       9/8/04

    REPLY TO
    ATTN OF: USAID/Ecuador Director, Lars Klassen

    SUBJECT:    Audit of USAID/Ecuador’s Northern Border Development Program
                (Report No. 1-518-04-xxx-P)

    TO:         RIG/San Salvador, Steven H. Bernstein /s/


                The Mission has the following comments on the subject draft audit report:

                1. The Mission agrees with the recommendation presented in the report
                   and has developed the attached policies/procedures to ensure that
                   beneficiaries are not double-counted when reporting the overall
                   number of beneficiaries of the Northern Border Development
                   Program. The attached document will form part of the Performance
                   Monitoring Plan (PMP) which has been modified to show the
                   corrected numbers.

                2. We found an inconsistency in the number of bridges mentioned in the
                   report. For example, on page 8 the report refers to a total of 23 bridges
                   constructed. On the other hand on page 12, the report states a target of
                   22 bridges of which 21 were completed. Finally on page 15 the text
                   says RIG visited 12 of 28 bridges. We are researching this and will
                   provide you with the correct number next Monday August 30.

                3. It is hard to find a reference to the date of the audit. If this is not
                   inserted in the Background or Summary Section of the Report, the
                   Mission assumes it will be cited in the Cover Memo with the Final
                   Report.

                The Mission would like to thank all the RIG staff that participated in the
                audit, which has helped us improve the management of USG resources
                invested in the Northern Border Development Program.




                                                                                         27
